<html>
<title> - [H.A.S.C. No. 114-44] UPDATE ON FINDINGS AND RECOMMENDATIONS OF THE 2014 DEPARTMENT OF DEFENSE NUCLEAR ENTERPRISE REVIEW</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]




                                   
 
                         [H.A.S.C. No. 114-44]

                         UPDATE ON FINDINGS AND
                      RECOMMENDATIONS OF THE 2014
                     DEPARTMENT OF DEFENSE NUCLEAR
                           ENTERPRISE REVIEW

                               __________

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                                 OF THE

                      COMMITTEE ON ARMED SERVICES
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             JUNE 25, 2015
                             
                             
                             
                             

                                     
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                                 ____________
                                 
                      
                                 
                                 
                   U.S. GOVERNMENT PUBLISHING OFFICE
  95-319 PDF                 WASHINGTON : 2016       
_________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office,
      Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
     Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001
                                
  


              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                  VICKY HARTZLER, Missouri, Chairwoman

JEFF MILLER, Florida                 JACKIE SPEIER, California
K. MICHAEL CONAWAY, Texas            JIM COOPER, Tennessee
JOSEPH J. HECK, Nevada               HENRY C. ``HANK'' JOHNSON, Jr., 
AUSTIN SCOTT, Georgia                    Georgia
MARTHA McSALLY, Arizona              GWEN GRAHAM, Florida
                 Heath Bope, Professional Staff Member
                 Mike Amato, Professional Staff Member
                         Abigail P. Gage, Clerk
                         
                         
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Hartzler, Hon. Vicky, a Representative from Missouri, Chairwoman, 
  Subcommittee on Oversight and Investigations...................     1
Speier, Hon. Jackie, a Representative from California, Ranking 
  Member, Subcommittee on Oversight and Investigations...........     2

                               WITNESSES

Benedict, VADM Terry, USN, Director, Strategic Systems Programs, 
  United States Navy.............................................     5
Brumer, Dr. Yisroel, Director, Strategic, Defensive, and Space 
  Programs, Office of the Secretary of Defense, Cost Assessment 
  and Program Evaluation.........................................     4
Clark, Maj Gen Richard M., USAF, Commander, 8th Air Force, United 
  States Air Force...............................................     7
Weinstein, Maj Gen Jack, USAF, Commander, 20th Air Force, United 
  States Air Force...............................................     6

                                APPENDIX

Prepared Statements:

    Benedict, VADM Terry.........................................    40
    Brumer, Dr. Yisroel..........................................    33
    Clark, Maj Gen Richard M.....................................    56
    Weinstein, Maj Gen Jack......................................    50

Documents Submitted for the Record:

    Air Force Global Strike Command ICBM Force Improvement 
      Program (FIP) Recommendations..............................    69

Witness Responses to Questions Asked During the Hearing:

    Ms. Speier...................................................    85

Questions Submitted by Members Post Hearing:

    Mrs. Hartzler................................................    89
    Ms. Speier...................................................    92
    

   UPDATE ON FINDINGS AND RECOMMENDATIONS OF THE 2014 DEPARTMENT OF 
                   DEFENSE NUCLEAR ENTERPRISE REVIEW

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
              Subcommittee on Oversight and Investigations,
                           Washington, DC, Thursday, June 25, 2015.
    The subcommittee met, pursuant to call, at 1:04 p.m., in 
room 2212, Rayburn House Office Building, Hon. Vicky Hartzler 
(chairwoman of the subcommittee) presiding.

OPENING STATEMENT OF HON. VICKY HARTZLER, A REPRESENTATIVE FROM 
      MISSOURI, CHAIRWOMAN, SUBCOMMITTEE ON OVERSIGHT AND 
                         INVESTIGATIONS

    Mrs. Hartzler. Welcome. I am delighted to convene this 
meeting.
    Nuclear deterrence remains the foundation of national 
security for the United States and our allies. It is also 
fundamental to preserving international stability. Our nuclear 
deterrent not only keeps potential adversaries at bay, it also 
assures and comforts our allies. This central, but often not 
immediately visible role has prevented both nuclear war and 
large-scale conventional war between the world's great powers 
for 70 years.
    Seven months ago, in an open letter to the men and women 
who serve with U.S. nuclear forces, then-Secretary of Defense 
Hagel declared that ``our nuclear deterrent plays a critical 
role in assuring U.S. national security.'' He also said, ``no 
other capability we have is more important.'' I agree.
    I am honored to represent the officers and enlisted 
personnel assigned to Whiteman Air Force Base. Among these are 
the very talented and capable members of the 509th Bomb Wing 
and 131st Bomb Wing who fly and maintain the B-2 Spirit bomber. 
Theirs is a demanding and challenging job, carried out away 
from the limelight but with dedication and perseverance.
    These Air Force personnel form a critical part of the U.S. 
nuclear triad that carries out this priority mission. Yet, we 
are at a critical inflection point for our nuclear forces.
    As the age of U.S. nuclear weapons increases and some of 
our bombers, submarines, and intercontinental missiles become 
older than the personnel who maintain and operate them, 
potential adversaries are fielding newer and more advanced 
nuclear arms. Many prospective foes are also making nuclear 
weapons more, not less, central to their national strategies.
    Chairman Thornberry has turned his committee's attention to 
these vitally important topics this week. The committee is 
convening a series of open hearings and classified briefings to 
learn more details of the challenges facing our nuclear 
enterprise. Today's oversight hearing is part of that broader 
effort.
    Not long ago, then-Secretary of Defense Hagel called on 
both internal and external teams of specialists to consider the 
various deep-seated problems confronting our nuclear 
enterprise. The report of the Nuclear Enterprise Review was 
sobering.
    It set forth many important recommendations to fix serious 
shortcomings which inhibited work of those at Whiteman Air 
Force Base and its Air Force and Navy counterparts in the ICBM 
[intercontinental ballistic missile] fields and across the 
submarine force.
    This afternoon, we will hear from the Defense Department's 
Cost Assessment and Program Evaluation [CAPE] office. The 
Deputy Secretary of Defense, who we heard from at a hearing 
earlier today, charged this office with the responsibility for 
assessing and measuring implementation of the recommendations 
contained in the Nuclear Enterprise Review.
    We will also hear testimony from the senior commanders 
responsible for the Air Force bomber and missile units and for 
the Navy's sea-based nuclear weapons carried by submarines. The 
subcommittee seeks to know what has been accomplished. We also 
seek to know which recommendations of the Nuclear Enterprise 
Review remain problematic. We must solve the challenges 
confronting our nuclear enterprise in a long-term and 
sustainable fashion.
    So before I introduce the witnesses, I turn to Oversight 
and Investigations Subcommittee ranking member for her 
introduction.

    STATEMENT OF HON. JACKIE SPEIER, A REPRESENTATIVE FROM 
   CALIFORNIA, RANKING MEMBER, SUBCOMMITTEE ON OVERSIGHT AND 
                         INVESTIGATIONS

    Ms. Speier. Thank you, Madam Chair. And thank you to all of 
the witnesses here today.
    The Congressional Budget Office estimates that we spend 
approximately $350 billion over the next decade to sustain and 
modernize our nuclear arsenal. Over the next 30 years, this 
bill could add up to $1 trillion.
    A letter sent to this committee last year by STRATCOM [U.S. 
Strategic Command] Commander Admiral Haney suggested nuclear 
weapons could consume close to 10 percent of the defense budget 
for a period of time, though he has since walked back from that 
statement before this committee.
    Under Secretary Frank Kendall stated earlier this year and 
I quote: ``We do have a huge affordability problem with nuclear 
modernization,'' end quote. But even as we spend vast sums to 
modernize, there has been extreme troubling lapses in the 
leadership underpinning our system of nuclear weapons.
    At the highest levels of leadership, the former deputy 
commander of STRATCOM was removed after revelations that he was 
spending 30 hours a week gambling at an Iowa casino using fake 
poker chips.
    A two-star general in charge of all U.S. intercontinental 
ballistic missiles was drunk and offensive while he partied 
with Russian women during an official trip to Moscow.
    In 2013, 76 enlisted sailors were involved in cheating at a 
naval reactor training facility. Similarly, in the officer 
ranks of the ICBM force, over 90 missileers were implicated in 
cheating on tests and several were prosecuted on narcotics 
charges. Furthermore, one missileer was charged with having 
been a gang leader.
    A 2013 RAND study warned that morale was low judging from 
these recent incidents. I can see why. In 2007, six nuclear 
weapons were loaded on a B-52 bomber and flown across the 
country before anyone realized the mistake. We are beyond lucky 
that nothing has happened. And as all of you know, we cannot 
rely on luck when it comes to our nuclear arsenal.
    Surprisingly, this is the first hearing that our committee 
has held to examine these more recent problems and what is 
being done to address them. I am encouraged that Secretary 
Hagel and now Secretary Carter are taking these issues 
seriously and have put in place a system to remedy these 
issues.
    I look forward to hearing from CAPE about progress on 
implementing the recommendations of the Nuclear Enterprise 
Reviews and hearing from the Navy and the Air Force on what 
challenges remain and what improvements are still needed.
    These problems must be detected early. And more 
importantly, we must restore a culture of effective leadership 
and integrity throughout our nuclear forces.
    I am concerned that several of these problems such as the 
cheating in the Air Force missileer ranks may have been 
commonplace for years and perhaps decades. This significant 
lapse in integrity was never surfaced or corrected and was 
simply accepted.
    Moreover, many of the problems surfaced in the press by AP 
[Associated Press] reporter Bob Burns and the Air Force first 
minimized these issues. Moving forward, Congress must be 
informed of any ongoing or new problems as well as the progress 
to correct these issues.
    Effective change in leadership and culture may take time, 
but must begin immediately. We cannot accept risks when it 
comes to our nuclear arsenal.
    I would like to thank Chairman Thornberry and Chairwoman 
Hartzler for holding this hearing and look forward to hearing 
from our witnesses. Thank you.
    Mrs. Hartzler. Thank you, Ms. Speier.
    Members of the committee who are not assigned to this 
subcommittee could be with us today. Therefore, pursuant to 
committee procedure, I ask unanimous consent that non-
subcommittee members be permitted to participate in today's 
hearing after all subcommittee members have had an opportunity 
to ask questions.
    Is there objection? Without objection, non-subcommittee 
members, will be recognized at the appropriate time for 5 
minutes.
    Now, I am happy to introduce our witnesses. Dr. Yisroel 
Brumer is the director for Strategic, Defensive and Space 
Programs at the Cost Assessment and Program Evaluation office 
in the Office of the Secretary of Defense. The office is tasked 
with tracking, monitoring, and independently assessing the 
implementation of the recommendations of the Nuclear Enterprise 
Review.
    Vice Admiral Terry Benedict is the director of the U.S. 
Navy Strategic Systems Programs. He directs the training, 
systems, equipment, facilities, and personnel of the Navy's 
strategic weapons.
    Major General Jack Weinstein is the commander of the 12th 
Air Force and is responsible for the Nation's intercontinental 
ballistic missile force.
    Major General Richard Clark is the commander of the 8th Air 
Force which oversees the Air Force nuclear bombers.
    So, Dr. Brumer, we will start with you for your opening 
statement.

     STATEMENT OF DR. YISROEL BRUMER, DIRECTOR, STRATEGIC, 
   DEFENSIVE, AND SPACE PROGRAMS, OFFICE OF THE SECRETARY OF 
        DEFENSE, COST ASSESSMENT AND PROGRAM EVALUATION

    Dr. Brumer. Thank you. Chairwoman Hartzler, Ranking Member 
Speier, and distinguished members of the committee, I am 
honored to join you today. And I do appreciate the opportunity 
to testify about how my team is executing the tasks resulting 
from the recent internal and external reviews of the nuclear 
enterprise directed by former Secretary Hagel.
    These reviews concluded that without intervention, issues 
relating to resourcing, personnel, organization, and culture 
have put the nuclear enterprise on a path to more frequent and 
greater problems than we have previously witnessed.
    Former Secretary Hagel directed the Department to place a 
renewed emphasis on the nuclear force. He specifically charged 
the director of Cost Assessment and Program Evaluation to 
track, monitor, and independently assess the implementation of 
the review's recommendations with particular focus on assessing 
the health of the nuclear enterprise. He also tasked us to 
provide monthly updates to the Deputy Secretary of Defense and 
regular updates to the Secretary.
    Our team includes current and former Active Duty military 
members as well as scientists and data experts to support 
technical assessments. This team has shown unwavering 
dedication to improving the enterprise by delivering the most 
honest and objective analysis, data, and assessments possible.
    Senior leadership has been keenly interested in 
comprehensive and sustainable solutions rather than short-term 
efforts that merely check boxes without placing the enterprise 
on more solid footing.
    This charge has proven to be the most important and the 
most difficult aspect of our task. It is easy to verify an 
instruction has been modified to relieve the force of an 
unnecessary burden or that needed equipment and gear has been 
delivered. It is much more difficult to measure changes in 
culture or personal attitudes toward the mission. We believe 
this kind of analysis is important to facilitate real change 
while also remaining vigilant to identify unintended second- 
and third-order effects.
    Our team has made significant strides in a short time. 
Since September, we have distilled every possible 
recommendation from the reviews. We have held meetings with all 
the stakeholders and formulated problem statements identifying 
the root cause of each issue. We have worked with each 
responsible organization to develop detailed approaches, 
metrics, and milestones.
    Finally, to go beyond box-checking, we developed metrics to 
determine whether we are achieving the desired intent to 
improve the overall health of the enterprise.
    Additionally, we are visiting key locations to become more 
familiar with unique mission and quality-of-life challenges as 
well as to hold non-attributional discussions to gather 
empirical data and learn what issues are most pressing.
    Assessing the overall health will prove challenging and we 
recognize it will take years of dedicated effort to restore the 
risk margin that has been lost. We intend to provide leadership 
with our best analysis and advice to help them guide these 
efforts to completion.
    Our team has embraced this challenge and they are proud to 
have been entrusted with the role of ensuring issues are 
addressed to provide the Nation with the safe, secure, and 
effective strategic deterrent that is so critical to our 
national security.
    I will continue to report our progress on a regular basis. 
You have my assurance we will remain vigilant and we will 
maintain our honesty and integrity for as long as the Secretary 
of Defense and this committee deem our services worthy and 
necessary.
    Thank you for your time and I do welcome your questions.
    [The prepared statement of Dr. Brumer can be found in the 
Appendix on page 33.]
    Mrs. Hartzler. Thank you, Dr. Brumer.
    Admiral Benedict, now we turn to you.

  STATEMENT OF VADM TERRY BENEDICT, USN, DIRECTOR, STRATEGIC 
              SYSTEMS PROGRAMS, UNITED STATES NAVY

    Admiral Benedict. Chairwoman Hartzler, Ranking Member 
Speier, distinguished members of the subcommittee, thank you 
for the opportunity to testify before the Subcommittee on 
Oversight and Investigations. I represent the men and women of 
our Navy's Strategic Systems Programs or SSP. Your continue 
support of our deterrence mission is appreciated, and I thank 
you.
    As the director of SSP, it is my responsibility to design, 
develop, produce, support, and ensure the safety and the 
security of our Navy's sea-based strategic deterrent 
capability, the TRIDENT II (D5) Strategic Weapons System.
    My written statement, which I respectfully request be 
submitted for the record, addresses the Navy's top priorities 
for maintaining a credible, effective, and safe sea-based 
strategic deterrent.
    The Department of Defense Nuclear Enterprise Review or NER 
incorporated input on the nuclear forces as well as the 
supporting infrastructure to build, maintain, and control these 
assets.
    The NER provided the Navy an unbiased look and ultimately 
found that the nuclear enterprise is safe, secure, and 
effective today. However, as we all know, it found evidence of 
systemic problems that, if not addressed, could undermine the 
safety, security, and effectiveness of elements of the nuclear 
forces in the future.
    The Navy has taken significant steps to implement 
corrective action for the recommendations. The Navy will 
continue to actively work with the Office of the Secretary of 
Defense and with Congress to implement solutions across the 
fleet to ensure safety and reliability. The Navy's investments 
will include infrastructure sustainment and improvements in 
personnel, training, and accountability.
    Additionally, the Secretary of the Navy has nominated me to 
be the regulator for oversight of the Navy nuclear deterrent 
mission in order to sharpen our operational focus. As the 
Navy's regulator, I report directly to the Chief of Naval 
Operations on nuclear force readiness.
    Thank you for the opportunity to testify today, and I am 
pleased to answer your questions when appropriate.
    [The prepared statement of Admiral Benedict can be found in 
the Appendix on page 40.]
    Mrs. Hartzler. Thank you, Admiral.
    General Weinstein.

STATEMENT OF MAJ GEN JACK WEINSTEIN, USAF, COMMANDER, 20TH AIR 
                 FORCE, UNITED STATES AIR FORCE

    General Weinstein. Chairwoman Hartzler, Ranking Member 
Speier, and distinguished members of the committee, thank you 
for allowing me to appear before you and represent the over 
10,000 intercontinental ballistic missile professionals of 20th 
Air Force.
    Every day, across 33,600 square miles in Colorado, Montana, 
Nebraska, North Dakota, and Wyoming, more than 900 airmen are 
deployed to launch facilities and missile alert facilities to 
provide our Nation a credible around-the-clock nuclear 
deterrent, poised and ready when called upon by the President.
    I am immensely proud of the fine Americans serving in the 
ICBM mission as I know you are and I share in your view that we 
must continue to provide them the training, professional 
development, and resources they need to accomplish this 
critical national mission.
    The airmen of 20th Air Force are benefiting greatly from 
improvements we have implemented based on the recommendations 
of the Nuclear Enterprise Review and Air Force reviews.
    The support we have received from Congress, the highest 
levels of the Department of Defense, and senior leaders of the 
United States Air Force has allowed us to address shortfalls 
and reaffirm the Air Force's commitment to the nuclear mission 
as the number one priority.
    As commander of the operational ICBM force, I continue to 
focus on the Nuclear Enterprise Review recommendation to 
rebuild culture and improve morale. The actions we have taken 
over the last 18 months are moving us in the right direction, 
providing our airmen with the proper equipment and empowering 
them to make decisions, developing each of them not just as 
technical experts but as leaders.
    As we fully implement resource and programmatic 
improvements to the ICBM mission, we will continue to rebuild a 
culture that is foundational to continuing and enduring 
improvement.
    We will remain attuned to our frontline airmen for their 
feedback and to our commanders and enlisted leaders in the 
missile fields to ensure we make informed decisions to execute 
our mission exceptionally well and develop tomorrow's nuclear 
leaders.
    Madam Chairwoman, I want to thank you again for the 
opportunity to appear before the committee to discuss 20th Air 
Force and the ICBM mission. I look forward to your questions. 
Thank you.
    [The prepared statement of General Weinstein can be found 
in the Appendix on page 50.]
    Mrs. Hartzler. Thank you, General.
    And now last but not least, General Clark.

STATEMENT OF MAJ GEN RICHARD M. CLARK, USAF, COMMANDER, 8TH AIR 
                 FORCE, UNITED STATES AIR FORCE

    General Clark. Chairwoman Hartzler, Ranking Member Speier, 
and distinguished members of the committee, thank you for 
allowing me to appear before you today to represent the men and 
women of the 8th Air Force.
    Let me say first that the men and women are of the Mighty 
8th are doing a fantastic job every day providing a safe, 
secure, and effective nuclear force for our Nation while 
assuring we are prepared to execute our conventional mission 
any time, anywhere on the planet.
    Over the last year, we implemented many changes based on 
feedback from airmen carrying out the nuclear mission and we 
are constantly assessing where we still need to improve.
    The numerous changes we have instituted are completely in 
line with the internal and external Nuclear Enterprise Reviews 
conducted last year. With the support of the Secretary of the 
Air Force and the Chief of Staff of the Air Force as well as 
the leadership of the Secretary of Defense, we restored our 
nuclear focus, are pursuing essential modernization efforts, 
and are making key quality of life enhancements for our airmen.
    We are funding 156 manpower positions across our 3 bases, 
providing relief to our most understaffed specialties, and will 
soon open a 34-person operations and maintenance detachment in 
Anderson Air Force Base Guam to provide needed support to the 
continuous bomber presence mission.
    We recently conducted a headquarters force improvement 
program and will begin addressing the findings in the coming 
days and weeks. Our airmen have a voice and we are listening. 
Maintaining readiness is a testament to our airmen's 
dedication, commitment, and expertise. But we are operating 50-
year old aircraft and are now at the point where we can no 
longer postpone upgrades.
    Modernization efforts aimed at our existing B-2 and B-52 
aircraft and associated weapons as well as the new long-range 
strike bomber are critical to preserving our dominance against 
next-generation capabilities.
    Modernization is also a means of bridging the say-do gap 
and showing our airmen that the mission they perform day in and 
day out is important to their Nation. We realize these upgrades 
come at a cost and we are working with our ICBM and Navy 
partners to find areas of intelligent commonality.
    Madam Chairwoman, I want to thank you again for the support 
of your committee and for the opportunity to appear before you 
to discuss 8th Air Force. I look forward to your questions.
    [The prepared statement of General Clark can be found in 
the Appendix on page 56.]
    Mrs. Hartzler. Thank you, General.
    Thank you, gentlemen, for your statements and your 
comments.
    I guess I want to just start with Dr. Brumer, my questions. 
Over the last 9 years, 24 unclassified and classified reports 
sanctioned by the Department have assessed, identified, and 
proposed remedies to issues within our nuclear enterprise. Yet, 
you still describe in your written testimony that the two most 
recent reviews concluded that without interruption issues 
relating to resourcing, personnel, organization, and culture 
have the nuclear enterprise on a path to more frequent and 
greater problems that we have previously witnessed. So what 
additional unacceptable events need to occur in order for the 
Department to wholeheartedly implement and sustain the 
recommendations in the two most recent reports on the nuclear 
enterprise?
    Dr. Brumer. Thank you, Chairwoman. That is an extremely 
important question. When we started this effort, we spent a 
fair bit of time asking how do we ensure that this is not just 
the latest in a series of attempts to fix the problem and, you 
know, that we are not having these conversations again in a few 
years.
    Our assessment is that what has happened in the past, there 
were a number of reviews, they made hundreds of 
recommendations, and the services took those recommendations 
seriously but implemented them with more of a box-checking 
mentality. There is a set of things to do, I have done them, I 
can now close them out rather than having an enduring focus on 
the mission and follow-on assessments, you know, whether we are 
having the intended effect. We are all committed to making sure 
that doesn't happen this time. And that is very much at the 
heart of what we are doing.
    So there are recommendations from the reviews. We are 
tracking to make sure that those [are] implemented. We are also 
paying very close attention to whether we are achieving the 
desired effect, whether we are having unintended consequences 
that are creating new risks or whether new risks that we simply 
haven't seen before are arising to make sure we are aware of 
them before a review is required.
    Mrs. Hartzler. I read your testimony as well as part of the 
report and it seems like you have got a lot of the matrixes in 
place for process as well as product and you have got a process 
to monitor in place. But what have you seen so far of actually 
recommendations that have been made that you can say have been 
achieved? Can you give us some of the successes that have 
occurred that you have monitored?
    Dr. Brumer. Yes, absolutely. What I would say is at the 
moment there is a comprehensive effort across the Department to 
address all of the review's recommendations.
    By far, the most important thing that has occurred has been 
the involvement by the senior leadership in the Department 
personally, the Secretary, the Deputy Secretary of Defense, the 
Secretary of the Air Force, Secretary of the Navy, have been 
very personally involved holding regular meetings to hold the 
senior leadership accountable. That is without question what is 
most different this time and that has been very much the engine 
for a different atmosphere this time around.
    There are a number of other recommendations that have 
already been implemented, the Air Force elevating Global Strike 
Command from a three-star to a four-star, as example, standing 
up a senior leadership forum to have discussions. And maybe the 
services want to talk more specifically about what is 
happening, but there has been money spent, actions taken, 
people held accountable. It has been significant.
    That said, it is early in the process and we are continuing 
to monitor the impact, but we expect this to take years before 
we will be able to say that the risk margin has been regained.
    Mrs. Hartzler. Thank you very much.
    Major General Clark, this committee has been very 
supportive of Air Force efforts to recapitalize the bomber 
fleet with the new long-range strike bomber. Knowing that 
operational fielding of the new bomber is still a decade away, 
what is the Air Force's philosophy on how it will approach 
which bomber fleet will be recapitalized first? And given the 
Air Force's goal to procure 80 to 100 new bombers, will the 
long-range strike bomber eventually replace all types of 
bombers in a single peer fleet?
    General Clark. Thank you, Madam Chairwoman. We are 
developing a bomber roadmap that will address the concerns that 
you are discussing. And the bottom line to that is it is going 
to take all three of these--all three of our current bombers in 
our bomber fleet to get us to the point where we have the LRSB, 
the long-range strike bomber in order.
    So what it is going to require is modernization and 
sustainment of the B-52 and the B-2 in particular for the 
nuclear mission. And we do have plans in place, the President's 
budget does address those. Now it is a matter of committing to 
the roadmap that we develop to get us to that next step for the 
LRSB.
    Mrs. Hartzler. Once it comes online, will it replace 
eventually all three with one?
    General Clark. Yes, ma'am. Eventually, it will replace. It 
will be the long-range strike bomber for us at a point.
    Mrs. Hartzler. Very good. I will withhold my other 
questions, give my colleagues and my ranking member a chance to 
ask questions.
    Ranking Member Speier.
    Ms. Speier. Thank you, Madam Chair. Let me just ask each of 
you briefly. I would like you to respond briefly to the 
affordability issue. We don't have the willingness to tax 
ourselves to properly support defense. So how would you--how do 
we deal with this affordability issue?
    Dr. Brumer. Thank you. I think the Deputy Secretary put it 
the best this morning he said this is the number one priority. 
We are going to have to fund it. That means either additional 
funds will be required or there will be very difficult choices 
made about mission risk in other important areas.
    Admiral Benedict. Ma'am, I think there are two ways to 
address affordability. One is to very carefully and diligently 
scrutinize requirements and I will tell you in the Ohio 
replacement program, we have spent the last number of years 
ensuring that that scrub has been done.
    The second aspect and it is one that we are working within 
the Navy very closely with the Air Force is the issue of 
commonality. As we look at the systems and we are both on 
this--on the path to modernize the systems, where could we, 
where should we strive for commonality between the SLBMs, the 
submarine-launched ballistic missile, and the ICBMs, the land-
based. That is an effort that is being championed at the RDA 
level, the Assistant Secretary level with the support of OSD 
[Office of the Secretary of Defense] so, I think those two 
aspects address affordability.
    General Weinstein. We are working really closely with the 
United States Navy as Admiral Benedict talked about when it 
comes to commonality. We are fortunate that Admiral Haney, the 
combatant commander holds stakeholder meetings.
    The most recent ICBM stakeholder meeting where we talked 
about sustainment issues in the force as well as modernization 
issues in the force, we have Admiral Benedict to attend to the 
stakeholder meetings on ICBM so we can address corporately what 
resource needs we have in the future and what components using 
commonality in a smart manner can you use for both the SLBM 
force and the ICBM force.
    And I believe by working together as a team you can look at 
this commonality whether it is in the propulsion system, 
whether it is in the guidance system, and I think by looking at 
commonality is where you can find a common ground in order to 
do what is best for the American taxpayer to provide a 
capability that this Nation greatly needs.
    Ms. Speier. Major General Clark, do you have anything to 
add?
    General Clark. Ma'am, I don't have anything really to add 
other than what was already said.
    Ms. Speier. All right. Thank you.
    General Weinstein, Congress was alerted to the cheating and 
morale problems through press articles. We weren't informed by 
any of the executives within the military. Why were we not 
alerted to the problem initially? Did you not know about it 
either?
    General Weinstein. I knew completely about it and I will 
tell you when I found out about it exactly and then who I 
notified. And, we were hosting, it was early January, hosting 
the Secretary of Defense, Secretary Hagel was there. I found 
out on that day that there was a drug investigation ongoing and 
that drug investigation, besides touching other Air Force 
installations, touched crew members at one of my installations 
at Malmstrom.
    I told the Secretary of Defense immediately when I found 
out and then we informed our senior leadership at that time. As 
the operational----
    Ms. Speier. How about the Congress?
    General Weinstein. Well, as the operational commander, I 
worked for the Commander of Global Strike Command of the 
Commander of U.S. Strategic Command and those people were told 
immediately that there was a problem.
    Ms. Speier. That doesn't respond to Congress not being told 
about it until they read about it in the paper. All right. One 
of the recommendations was to guarantee one of the missileers 
the top three choices for next assignment. Has the Air Force 
been able to fulfill that promise?
    General Weinstein. We are working diligently on that 
promise.
    Ms. Speier. Does that mean you are executing it or not?
    General Weinstein. We are executing--let me first--if I--if 
you please give me time--what we are executing is a change to 
the way we do training and evaluation in the ICBM business, to 
empower our airmen to give them proper training. And that was 
one of the issues that the Secretary of the Air Force explained 
immediately after visiting the bases.
    Because of that, we have changed our crew force structure 
from a 4-year crew tour into a ``3+3'' crew tour which is 3 
years at an operational base where you are a deputy or a 
missile combat crew commander and then over to being an 
instructor, evaluator, or a flight commander.
    By changing that 3+3 structure, we have seen a decrease in 
the last two developmental teams and those are the teams that 
get together to vector crew members after their first 3-year 
assignment because based on the 3+3 structure, we require 
additional crew members for that.
    So, we have fallen below that 90 percent on two development 
teams and we are going to work on that. The one data point that 
I think is extremely important is we assign people to their 
assignments based on two factors. Factor one is how well are 
you doing in your current assignment because it is a merit-
based process. And number two is where are there openings in 
the new career field because not every career field has an 
opening at the same time every single year.
    When we look at the top 50 percent of ICBM crew members 
receiving their top three preferences one, two, or three, in 
the last board, 100 percent got--of the top 50 percent, got one 
of their three assignments. So, we are striving hard to make 
sure we can meet the needs of the individual, at the same time 
meet the needs of the service.
    Ms. Speier. So, you are saying the top 50 percent, so the 
bottom 50 percent didn't get their choices, is that what you 
are saying?
    General Weinstein. No. When I looked at the data for that 
one, for the top three preferences overall, it is above 80 
percent.
    Ms. Speier. Okay.
    General Weinstein. So, we are taking care of everyone in 
the enterprise.
    Ms. Speier. So, there is a huge morale problem, correct?
    General Weinstein. No, ma'am, I disagree. There was----
    Ms. Speier. But there has been a huge morale problem.
    General Weinstein. There was a huge morale problem before 
we started the changes.
    Ms. Speier. Okay. Is there anything that requires this 24-
hour-on system? I mean, why not 12 hours?
    General Weinstein. Over the years, we have looked at the 
best way to man an operational force that requires to be on 
alert 24 hours a day, 7 days a week. By looking at the 24-hour 
schedule, that was the best schedule that supports the ability 
to man the mission as well as to take care of the people.
    One thing we have implemented which has been a great morale 
booster is a change in the alert schedule. The previous alert 
schedule had an individual that would go on alert, for example, 
on a Monday. They would come back on a Tuesday and would have 
to work again on Wednesday.
    That doesn't work at a place like Malmstrom Air Force Base 
which has the largest missile field and especially in the 
winter people would be coming back at 3, 4, 5 o'clock at night.
    We have introduced a schedule that we are calling ATOX 
which is they are on alert on a Monday. They travel back on 
Tuesday. They have Wednesday as a day off. And then on 
Thursday, they can either pull alerts or go into training.
    In February of this year, the Chief of Staff and the 
Secretary of the Air Force brought all the four-stars and 
directors from the Air Staff to Minot Air Force Base for a 
nuclear oversight board and one of the many boards that we have 
to make sure that we keep on track with all the changes.
    And then in the launch control center, one of the four-
stars in the United States Air Force asked a crew member what 
was the best part about her job. And she answered it was the 
schedule. So, we have improved morale greatly by changing the 
schedule which allows us to maintain the mission for Admiral 
Haney at the same time taking care of the airmen.
    Ms. Speier. All right. My understanding is that there used 
to be an annual competition between the Navy and Air Force but 
that has been discontinued. My understanding was that it used 
to build team spirit and lift the morale and help the nuclear 
enterprise officers to hone their skills throughout the year. 
Is this something that is worthy of being reinstated?
    General Weinstein. We have reinstated. Personally, I have 
been a missileer for over 32 years and I don't recall a 
competition combined with the United States Navy but we have 
instituted--my boss, Lieutenant General Wilson, Global Strike 
Challenge, that is a competition. We did one last year. We are 
doing one this year.
    We took a gap for a year or two based on sequestration and 
not having the available funds. But we have instituted a 
competition. That competition includes ICBM forces and as well 
as bomber forces and it is a great camaraderie-builder as well 
as improving the mission.
    Ms. Speier. Thank you. I yield back.
    Mrs. Hartzler. Thank you, Representative.
    We will go to another member of the subcommittee, 
Representative Johnson.
    Mr. Johnson. Thank you, Madam Chairwoman and thank you for 
hosting this hearing today.
    And let me get back to my notes. The Nuclear Enterprise 
Review, the NER, stated that prior reviews had taken place and 
that many key recommendations from those reviews had only 
marginal impact.
    The NER also stated that expectations are high that this 
time the response would be both sustained and effective. How 
can you assure the subcommittee that the necessary focus will 
remain on implementing the recommendations and how will you 
keep sustained attention on the issues within each of your 
respective services. And I would like to get a response to that 
from all of the witnesses but starting from Major Clark and 
then General Weinstein.
    General Clark. Sir, I think the--as Dr. Brumer mentioned in 
his opening statement----
    Mr. Johnson. And I am sorry, Major General. I am sorry.
    General Clark. Yes, sir, I understood. I have been called 
Major before, too. That is okay.
    Mr. Johnson. We will just keep it at General.
    General Clark. Yes, sir. Well, thank you. I appreciate 
that.
    Mr. Johnson. Thank you.
    General Clark. As Dr. Brumer mentioned in his statement I 
think that the last time we went through this type of effort in 
the enterprise it was somewhat of a box-check mentality. What 
we see this time and what I see as a new commander is that this 
really is a--it is a top-down effort because we are getting a 
significant amount of support from the Secretary of Defense, 
the Secretary of the Air Force, our Chief of Staff, Lieutenant 
General Wilson, who is the Air Force Global Strike Commander, 
top-down attention on the issues that we are facing.
    But we are also getting bottom-up attention. And our airmen 
are empowered this time to actually have a voice to help us to 
determine where the areas that we need to look at, areas that 
we need to improve upon. And when you have the top-down coupled 
with the bottom-up approach, I think that breeds a recipe for 
success for us. So, that is one major change that I think is 
along the way.
    And ultimately what I think happens here is we are going to 
get a culture change. And it is something that is going to be 
woven throughout the command because people believe it, people 
own it. They understand the purpose and they are empowered to 
do something about it. So, I think this time is different than 
before because it is not just a box-check mentality.
    Mr. Johnson. All right. Thank you.
    General Clark. Thank you, sir.
    Mr. Johnson. General Weinstein.
    General Weinstein. Thank you for the question. This review 
is different than previous ones. I would like to talk about 
what we did based on the cheating scandal at Malmstrom. We did 
three separate investigations because of the cheating scandal 
internal to the United States Air Force before the Secretary of 
Defense did the Nuclear Enterprise Review.
    The first thing we did was the commander directed an 
investigation that looked at the leadership at Malmstrom. The 
second item we did was a group that had an organizational 
behavior specialist on it to find out how did we get that way 
and that was the senior operational training and evaluation 
group, had an ICBM person and a bomber person on it.
    Just like Admiral Benedict talked about commonality, there 
is commonality on how to solve problems. And my boss, 
Lieutenant General Wilson, worked with the commander of SUBLANT 
[Submarine Force Atlantic] and a fellow task force commander 
Vice Admiral Mike Connor and developed a program called the 
Force Improvement Program that General Clark just talked about.
    The Force Improvement Program then went out and talked to 
the airmen. And we broke it up into many different 
subspecialties. We broke it up into operations, maintenance, 
support, helicopters, and operations. We received numerous 
items, over 350 recommendations. Those were 350 recommendations 
that came from the airmen.
    The only two people that were allowed to say no to one of 
those recommendations were myself and General Wilson. We spent 
3 days at Barksdale Air Force Base in Louisiana to review all 
those items. From those items, we came up with how we are going 
to improve the culture and the commitment in the ICBM force.
    When you look at the Nuclear Enterprise Review, there is 90 
percent congruence between what the Nuclear Enterprise Review 
came and then what occurred during the Force Improvement 
Program. And then, as we have talked about before, it is 
leadership commitment; myself, General Clark, Vice Admiral 
Benedict, we attend meetings with the Deputy Secretary of 
Defense and the SECDEF [Secretary of Defense].
    The Secretary of Air Force has visited our bases more than 
any other bases so it is the leadership commitment and it is 
the commitment from the airmen and the leaders that are making 
a difference this time.
    Mr. Johnson. Thank you.
    Madam Chair, if I could hear from Admiral Benedict on this 
also. Thank you.
    Admiral Benedict. Congressman, thank you. Sir, I will 
reiterate what my Air Force counterpart has said. I think, 
first and foremost, it is the attention by senior leadership. 
Going back to 2007 when Secretary Schlesinger and Admiral 
Donald conducted internal reviews of the Navy's position, we 
have implemented 100 percent of those findings.
    We continually assess ourselves every 2 years. We knew that 
we had issues with infrastructure and personnel before the 
SECDEF reviews last summer. But the senior commitment not only 
in attention to detail but also financially has allowed us to 
move those two areas at a much more rapid pace to ensure that 
we are fully in support of this mission.
    Mr. Johnson. Thank you. And with that, I will yield back.
    Mrs. Hartzler. Thank you, gentlemen.
    Now, we will go to Representative Zinke.
    Mr. Zinke. I want to thank you, Madam Chairman. As you 
know, I represent Montana, the sole Congressman from the great 
State that has Malmstrom. And thank you, sir. And I am also a 
former SEAL [Sea, Air, Land forces] commander and I have 
concerns as I have been through multiple hearings about one, is 
there is this wave that would think that the triad is no longer 
relevant given that the bombers face enormous challenges, that 
our diminishing submarine force and disruptive technology, 
which makes them more difficult in that mission.
    And there are some that would suggest that the land-based 
ICBMs are no longer required. Given that disruptive technology 
can have a severe and overnight effect with our submarine 
force, our Air Force still is challenged with aging aircraft, 
it leads to the missile base.
    And do you share that opinion that without the missile base 
we are putting our country's deterrence at great risk?
    General Weinstein. I think the ICBM force like the bomber 
force and the sea-launched ballistic missile force are 
absolutely critical to the defense of our Nation. I think 
sometimes we need to look at the problems through the eyes of 
our adversary. And if you look at some of our other nations--
and if you look at other nations, other nations are investing 
in a new ICBM, whether it is a mobile ICBM or replacing all 
their other ICBMs. And other nations are trying to develop 
capability.
    I think the ICBM force provides a unique capability. It is 
an on-alert force 24 hours a day, 7 days a week that is used 
every single day to protect this Nation. It is used every 
single day in a deterrent role. And I think this is not the 
Cold War. This isn't a Cold War force.
    But if we look at the world environment today, it is more 
dangerous than the Cold War and more unpredictable, and the 
ICBM force is as valid today as it was in 1960s.
    Mr. Zinke. And Admiral, I got in the Navy in 1984. And my 
assessment today is there are more threats, more asymmetrical 
threats than when I first came in. Do you also share the view 
that today we face a heightened threat as opposed to the Cold 
War?
    Admiral Benedict. Yes, sir, I do. And, in fact, that has 
been the topic of much discussion as we have gone through the 
requirement scrub that I alluded to earlier as we have gone 
through the design phase of the Ohio replacement.
    That platform will be in the water through approximately 
2084. And so, as we try and project out the threats through 
that timeframe, the major focus of the requirements scrub was 
to ensure that we had technical margin to ensure that while we 
can't predict the future, we can certainly ensure that we don't 
find ourselves surprised in the future. And so, I would agree 
with you wholeheartedly, sir.
    Mr. Zinke. And Major General Clark, as the last part of the 
triad, the aging B-52s, could you explain what the process is 
and how long you expect those aircraft to stay in service?
    General Clark. Sir, we expect the B-52 to be in service for 
up to 25 more years. And through a series of sustainment and 
modernization programs that we have intact, we have a good plan 
to keep it viable.
    But I would like to address another point that you made 
about its relevance right now. The bomber fleet is the most 
flexible and the most visible part of the triad. That is what 
the bomber fleet offers. And I think from a flexibility 
standpoint, there is not a lot of argument there. It has 
certainly--delivers a wide array of weapons effects.
    It can do it in a wide array of timespan as well. But as 
far as the visibility, I just want to point one example to you. 
About 2 weeks ago, we had B-52s in the United Kingdom 
participating in an exercise in the Baltics. And as the B-52s 
were flying in the Baltic region, one of our B-52s was 
intercepted by a Russian fighter. And that Russian fighter 
pulled in to an observation position to monitor the B-52's 
activity. Our Swedish allies rejoined and the Russian fighter 
left. And what that shows is that the B-52 is still relevant 
because it is visible.
    Our allies see it. Our adversaries see it and it is in a 
deterrent role every day, so I strongly disagree with any 
notion that it is no longer relevant to our force.
    Mr. Zinke. We used to have B-52s in Glasgow, Montana, and 
you are welcome back anytime. And with that, Madam Chairman, I 
yield the rest of my time.
    Mrs. Hartzler. Thank you, gentlemen.
    The gentleman from Alabama, Mr. Rogers.
    Mr. Rogers. Thank you, Madam Chairman, and I thank the 
witnesses for being here, for your service to our country. This 
is for any one of you. The changes per the Nuclear Enterprise 
Review, how are they going to be institutionalized?
    I am worried long-term after Deputy Secretary Work is gone, 
I am worried about continued leadership and culture focus 
because obviously, we know there is a new heightened awareness 
now that the problems and a new zeal for resolving them, but 
that can wane and atrophy over time, so what are your thoughts 
about that?
    And I would open that up to any one of you.
    Admiral Benedict. Thank you, sir. One of the benefits that 
I enjoy within the Navy is that my mission is performed by 
professional submariners who basically take their platform to 
sea.
    And so the fundamental professional aspects of attention to 
detail as you take a submarine and prepare to dive and then 
execute your mission underwater with the preparation to 
resurface, again drives a very strong culture of self-
assessment in a different light.
    So I reap the benefits of that philosophy, that culture 
bleeding over to and supporting the Strategic Weapons System 
which is the sole purpose of an SSBN [ballistic missile nuclear 
submarine]. So from that aspect, I think we are strongly rooted 
in the overall culture of the submarine force.
    Going all the way back to 2007, one of the main objectives 
coming out of those two investigations was to develop within 
SSP a culture of self-assessment, and that is what instituted 
the biannual reviews that I conduct on myself and then those 
are reviewed as part of the larger Navy biannual assessment.
    So we don't let it spike and wane. We are taking a constant 
strain on a biannual basis to ensure that that culture remains 
strong and growing in the right direction.
    Mr. Rogers. General Weinstein, not everybody has the luxury 
of an 8-year assignment like Admiral Benedict which would help 
with long-term institutionalization and focus. What are your 
thoughts about how you are going to see that--this vigor remain 
present?
    General Weinstein. Thank you, sir. And it is a--it was an 
honor to host you and Congressman Cooper to Minot in the 
winter.
    Mr. Rogers. That is right. In December, let's tell 
everybody.
    General Weinstein. In December. As I mentioned earlier, the 
Force Improvement Program, which was the grassroots effort to 
get the lower ranking individuals in the organization and get 
their inputs. The key is leadership at the higher levels and we 
have talked about that, but to me it is the lower levels that 
believe in what we are doing is right.
    I had a captain in my office a few months ago and the 
captain looked at me and said, ``General, you don't have to 
tell me''--this is before we made all the changes--``General, 
you don't have to tell me my job is important. I know it is 
important. Just let me do it.''
    And I was having dinner with some airmen at Minot Air Force 
Base and the senior airman looked at me and goes, ``Sir, morale 
is my problem not your problem.'' A culture to change requires 
people at the lower levels to believe in what you are doing. 
And what I am seeing across the entire ICBM force is they 
believe in what we are doing and they are grabbing onto it 
themselves.
    So the concern--and my crew members have had the same 
concern about when leadership leaves. They don't want to see 
this go the way of other reviews. But what is different this 
time is we listened to them at the very beginning on what their 
problems were and they can see concrete examples of what we are 
doing to fix it.
    When we told them they needed new crew vehicles to go to 
the field, within a matter of 4 months they all had new crew 
vehicles to go to the field. When we told the cops that they 
have an extremely important job and they need to be in the 
proper uniform, we got them the camouflage pattern that is in 
Afghanistan and every one of my deployed airmen has those when 
they go out to the missile field. They are seeing concrete 
items. And the one item----
    Mr. Rogers. They are seeing, they build that sense of 
enthusiasm because they see it from you. They see that you let 
them know what they do matters. I know Admiral Benedict does 
that.
    He is going to do it for a number of years, but you are 
going to move on to the next assignment pretty soon. And I am 
just worried about whoever follows in your shoes that they let 
that missileer know what you do is really doggone important, 
that B-52 pilot, so that is what I worry about. How is that 
going to be continued after your move on to your next 
assignment?
    General Weinstein. Sir, I think it is the trust in the 
senior leadership of the secretary and chief for putting the 
right people in command of my organization. Just like putting 
General Rand in command of Global Strike Command is the right 
for the United States Air Force for the first four-star. It is 
senior leaders picking the right commanders and then it is 
empowering and trusting your airmen, that they can see that 
they have a voice and they have an impact.
    Mr. Rogers. But they get that from the top. That is the 
thing. And I agree about the flag officer. I think that is a 
good move. It shows commitment by the Secretary of the Air 
Force, the Secretary of Defense.
    But this has to be continued. And that is what I worry 
about long-term. I yield back.
    Mrs. Hartzler. Thank you, Mr. Chairman. I wanted to follow 
up on a question that Representative Speier had, bringing up 
the incident of the cheating. And was wondering if Admiral and 
General Weinstein, if you could explain about some of the 
changes that you are doing with testing and with evaluation of 
the airmen and the sailors.
    General Weinstein. I appreciate the question. What we have 
done is we have completely restructured the way we have done 
training and evaluation in the ICBM force. The way we used to 
do training--training was evaluation, so a crew member would 
take 47 tests per year and every test was a certification.
    Every time they went into the missile procedure trainer, 
our simulator, they were being evaluated. Well, that is not the 
right way to want to motivate a force. It is not the right way 
to train a force.
    We also, opposed to the aviation community, the less alerts 
you pulled the better crew member you were, which makes no 
sense. In the flying side, the more flight hours you have the 
better aviator you are.
    That is why we have come up with the 3+3 construct which is 
the first 3 years you are a deputy missile combat crew 
commander then you are a missile combat crew commander, and the 
most important piece is being in the missile field.
    We have changed the way we do training. They have two 
trainer rides a month. One they select themselves to hone their 
skills. They take one closed-book test, it is called boldface 
for those most important things per year--excuse me per month 
and then we have gone to the aviation side which is instead of 
a 12-month evaluation we are in an 18-month evaluation.
    Another critical item we have done is we put leaders in the 
field to lead from the front. In our business, the only person 
that pulled alerts other than crew members were a squadron 
commander. We now have wing commanders, vice wing commanders, 
and group commanders, all pulling alerts so we have senior 
people, so we have completely restructured the way we have done 
training and put missile combat crew commanders in charge of 
training. And that whole concept of empowering our best and 
brightest lieutenants to lead is the way we have structured the 
entire force.
    Mrs. Hartzler. No doubt that is an impact to the morale.
    Admiral.
    Admiral Benedict. Yes, ma'am. So in my discussions with 
Admiral Richardson who is head of Naval Nuclear Propulsion, the 
cheating scandal that occurred down in Charleston, and he spent 
an inordinate amount of personal professional time in 
personally understanding what happened down there.
    I think first and foremost, I can say with confidence that 
that is not a systemic problem down there. That was a group 
of--a very small cloistered group of individuals who chose to 
cheat.
    And in fact, it was the culture of self-assessment and 
honor, integrity, that allowed another instructor to identify 
that to the system that there was this small group of 
individuals. Admiral Richardson has chosen not just to address 
that problem but to look at the very nature of what would cause 
that, so he has gone through and looked at the rotation from 
sea duty to shore duty, to understand what was driving that 
behavior.
    He spent an excessive amount of time understanding the very 
nature of cheating, he has gone to I know the University of 
Notre Dame and talked to experts around the Nation trying to 
understand what drives people to break the ethics and integrity 
thresholds.
    And he has put in place, I think a strong measure that 
ensures that the aspects of coming off of arduous sea duty into 
instructive duty down in his prototypes does not drive--is not 
the causal factor for those young men and women to cheat.
    So I think that we have looked at not just the symptom, but 
I think Admiral Richardson to his credit has gone to the root 
cause to find the motivational factors and has taken concrete 
steps to ensure that he gets to that problem.
    Mrs. Hartzler. That is very encouraging. Sequestration over 
the past 2 years has obviously harmed efforts to organize, 
train, equip, modernize, and maintain readiness of our nuclear 
forces. This year both the House and the Senate have passed 
authorization bills that meet the President's requested funding 
level by increasing the amount of authorized OCO [overseas 
contingency operations] funds.
    In your professional judgment, and this is for all of you, 
do you foresee any difficulties because of the mechanism by 
which funding is provided to the Department by Congress in 
implementing the recommendations of the Nuclear Enterprise 
Review?
    Dr. Brumer.
    Dr. Brumer. Thank you. It is an important question. At the 
core of all of these discussions, and it has come up today and 
it comes up a lot in the Pentagon, is that this is an effort 
that requires enduring, sustained attention.
    And so last year in the Future Years Defense Program, the 
Department added $8 billion to address the recommendations of 
the reviews that will be reconsidered this year to see whether 
that was sufficient, whether there are additional ways to gain 
efficiency. But it is something that is going to require 
sustained attention; and the fiscal uncertainty associated with 
sequestration has, you know, it puts that at risk.
    Additionally, I will note that when I talk to the forces in 
the field, they are very aware of the things that are happening 
out here. They have been very encouraged by the activities in 
the Pentagon and hear these discussions as well as the 
additional funds that are coming, but that is a question that 
comes up a lot and somewhat undermines the message, the 
question of, you know, will this be sustainable given the 
fiscal uncertainty the Department of Defense faces.
    Mrs. Hartzler. Admiral.
    Admiral Benedict. Yes, ma'am. I would agree with Dr. 
Brumer. As I stated earlier, I have 69 more years of 
requirements to support the Strategic Weapons System, and as I 
think we have all stated here at the table, stability of and 
continuity of both personnel and resources is paramount to 
being able to execute that effectively.
    So while we truly appreciate the support of Congress, OCO 
funds is somewhat counter-culture to that stable platform that 
I think we would all desire.
    Mrs. Hartzler. Thank you.
    General Weinstein.
    General Weinstein. I completely agree with Admiral 
Benedict. It is really the consistency of funding; you know, as 
the operational commander, we need capability. And for the ICBM 
force, in the budget is a new payload transporter, which is the 
big white truck that brings the weapon as well as other 
capability out to the missile field.
    A new helicopter is absolutely critical to our ability to 
secure the force. And if you don't have consistency of funding 
for our acquisition airmen that are trying to buy this new 
capability that we need, the lack of consistency is really 
concerning because to my airmen, they will view this lack of 
consistency of funding as stepping back from the improvements 
to the Nuclear Enterprise Review because where the rubber meets 
the road is they want the new truck or they want to see the new 
helicopter and if we don't have consistency, that will 
undermine the improvements to the enterprise.
    Mrs. Hartzler. Okay.
    General Clark.
    General Clark. Ma'am, I agree with what everyone else said. 
It does have an impact on culture. And when we have airmen 
flying bombers that their grandfathers flew and then they see 
that the LRSB, which is critical to our future and the long 
range standoff munition, another critical piece, when they see 
those at risk because of the inconsistency and the uncertainty 
it does have an impact on morale.
    And it makes them question just how important the mission 
really is. So we can do all we can do as leaders, but like 
General Weinstein said, where the rubber hits the road is what 
our country really puts forward for them to do their mission.
    Mrs. Hartzler. Ranking Member Speier.
    Ms. Speier. Thank you, Madam Chair.
    You had referenced, I think, it was you, General Weinstein, 
that you had some 350 recommendations from the airmen. Would 
you make that list available to us so we can review them?
    General Weinstein. Yes, I will.
    [The information referred to can be found in the Appendix 
on page 85.]
    Ms. Speier. Okay. I just want to read--I want to ask you 
one question. Evidently, there are some court-martials underway 
right now that I am curious what the results have been. Let's 
see, there are four court-martials for drug use, rape, assault, 
sexual assault on an unconscious person, and larceny. And then 
at Malmstrom, from there two missileers that are being court-
martialed for using and selling bath salts, a synthetic 
substance that can render users psychotic.
    And at Warren three airmen have received--have recently 
been or are due to be court-martialed for drunk driving, using 
and selling pot, and indecent filming of the private areas of 
another person without consent. Are those cases ongoing right 
now?
    General Weinstein. Some of those I am familiar with, others 
I am not. I can provide the committee information you need on 
ongoing military justice cases in my command.
    [The information referred to can be found in the Appendix 
on page 85.]
    Ms. Speier. All right, if you would do so, I am curious 
when this conduct was going on and to you, Admiral Benedict as 
well to the extent that you have--there is this belief that you 
all have that morale is much better. And we want to believe 
that as well, but the extent that this kind of conduct is--was 
going on by missileers is very troubling I think to all of us.
    There was one reference made that--I just want to read this 
to you. After 2 years at F.E. Warren [Air Force Base], so you 
could--one of the missileers said he ``could complete a launch 
exercise in less than a minute, between scenes of Mad Men or 
bites of a burger. Once missileers learn their checklists by 
rote, many of them have hours of idle time on their hands. Some 
binge-watch TV or read, a few study for advanced degrees. 
Inside the capsules little has changed since the Cold War, from 
the constant vibrations and foot odor to the 8-inch floppy 
disks in the consoles. `It is absolutely all the same whether 
it is Christmas Day or the Fourth of July. . . You are in a 
constant state of jetlag. You are up [at] 1 a.m. under 
fluorescent lights. After a year and a half I was never fully 
awake or fully asleep. You reach this zombie state.'
    ``Sleep deprivation is known to induce hallucinations and 
impaired judgment. The CO<INF>2</INF> levels in the silos don't 
always meet OSHA [Occupational Safety and Health 
Administration] standards either. The combined effect may make 
missileers groggy and even impulsive and aggressive.''
    So that gets to that whole issue of 24-hour sets of duty 
and the impact that that has in creating fatigue. I could just 
tell you, I am one of those Members that flies from San 
Francisco to Washington every week. I am always on the wrong 
time zone and my body is always fatigued. Now, my 
responsibilities aren't as serious as those of the missileers 
but I feel it, so I am curious. I know sometimes there is this 
sense that we have got to be tough.
    In medical school and upon graduating and being residents, 
24 hours, 36 hours in an emergency room was like a rite of 
passage, until we realized that people were dying because of 
it. I am just curious whether you have seriously looked at 
whether these issues are real and whether they should be 
adjusted.
    General Weinstein. First of all, if you are referencing a 
recent article that was published, I find it interesting that 
it is one individual that makes a comment and we don't discuss 
with other members of that F.E. Warren Air Force Base. Let me 
go into some facts.
    Some of the facts are that is why we have 350-plus 
recommendations on what we need to do to fix. One of the 
comments you made about the, I will say dirty capsules, we have 
program now where we are doing deep cleaning of launch control 
centers for the first time since we have had launch control 
centers.
    So when you walk into one of my launch control centers at 
any of the bases that have been deep cleaned, you do not smell 
anything other than a clean capsule. I discussed how we changed 
the crew force from going from an alert travel day to going 
right back to work. We have completely structured that.
    We have restructured training. And when I talked about the 
3+3 schedule, so some of the concerns from that one individual, 
all those problems are problems that do not exist in the force 
because we have attacked those problems.
    Also, we are hiring at all the bases physiologists that can 
help people when it comes to what is the proper diet you need 
to be on as well as the proper sleep schedule and that whole 
piece. So from that comment, that is not what I am seeing in 
the force.
    I am seeing a force that sees the changes we are making. 
The changes that they requested based on being the airmen and 
pulling the alerts, the changes in training and evaluation, the 
new vehicles, the new crew schedule, upgrades to the launch 
control center that is in work--that is why consistency of 
funding is important to get rid of the 8-inch floppy disks that 
you referenced--so there has been a massive change in how we 
treat our airmen. There has been a massive change in how we are 
sustaining the weapon system, and some of those comments from 
previous people that were in the ICBM field are no longer 
valid.
    Ms. Speier. All right. Well, we would appreciate those 350 
recommendations, thank you.
    General Clark. Ma'am, can I add a point to General 
Weinstein?
    Ms. Speier. Certainly.
    General Clark. I would just like to say in regards to the 
24-hours in a launch control center, you can talk to General 
Tibbets or any other bomber pilot and you will find people 
flying sorties anywhere from 18 to 44 hours in a space a third 
as big as a launch control center in a seat, very confined 
quarters and it really is just--it is a part of what we do. It 
is a part of how we do business.
    But we prepare ourselves to do that just as the missileers 
do. So granted it is tough duty, but it is something that I 
think isn't out of the ordinary in the nuclear business and it 
is something that our airmen are prepared to do.
    Ms. Speier. Major General, I recognize that and I could 
just substitute the chief of academics at a medical school 
saying exactly the same thing. And it wasn't until there were 
deaths caused by emergency room interns and residents that were 
sleep deprived that we started to change that process. I think 
you should look at it. And I will leave it at that. Thank you.
    Mrs. Hartzler. Representative Johnson.
    Mr. Johnson. Thank you. For each one of you, I would like 
to ask which one of the NER recommendations poses the most 
significant challenge to implement and explain the factors that 
make implementation of that recommendation challenging. 
Starting with you again, General Clark.
    General Clark. Sir, I think some of the recommendations 
that are associated with resources and garnering more resources 
to implement are the most challenging for us, because there is, 
as we talked about before, a bit of uncertainty as to what 
resources we are going to have to do these things.
    Mr. Johnson. Okay. Other than resources.
    General Clark. Okay.
    Mr. Johnson. I thought you were going to go there.
    General Clark. Yes, sir. Well, then I guess my next answer 
would be the cultural change because culture is hard to move. 
It is hard to move the ship and to make it stick. And I think 
that is the challenge for us as leaders as well as our airmen 
to really own this mission.
    We have to empower our airmen. We have to trust them and we 
have to give them that sense of purpose so that they really do 
take the culture and make it theirs. And that is something that 
is going to take some time. It is going to take some effort, 
but I think we are on the right path.
    General Weinstein. Thank you, sir. I agree with General 
Clark, you know, the first two items as I look at the NER 
recommendations really is the resource challenges, consistency 
of budget is extremely important.
    That is the one piece and I won't--we have already talked 
about that. And then just like----
    Mr. Johnson. Which did not lead to the morale problems.
    General Weinstein. No, it did not lead to the morale 
problems. But when you look at some of the--that is why to me, 
culture and I appreciated the question from Congressman Rogers 
that the culture piece is really important.
    When you look at what the changes we made in the ICBM 
force, those changes are really geared in really two main 
areas. Area one has to do with improvements in the force. And I 
will talk about things that you can buy--new vehicles, cleaning 
capsules, making sure they have the right mattresses, making 
sure they have the right gear for security forces, make sure 
they have the right weapons and the right scopes.
    The bigger issue to me that is the--where I am getting a 
lot of bang for the buck has to do with the changing of the 
culture. In the ICBM force, which really impacted the culture 
piece, was we didn't empower our young officers.
    We took authority away from them. And when you take 
authority away from someone that wants to do a job, that is the 
worst thing for morale. By empowering our young airmen and our 
young officers to do the job, I think that is the most 
foundational thing that we are doing in order to improve the 
culture in the ICBM force.
    So when you look at the challenges, the challenges are 
continuing that culture change by trusting our airmen, giving 
them the right resources, giving the right training, and then 
when you do that, and you trust them and then if they make a 
mistake, there are two types of mistakes people will make. You 
will make an error of omission or error of commission. If you 
make an error of omission, you handle that one way, an error of 
commission you handle another way.
    So I think by really focusing on the culture changes is 
what is why if you were to visit one of my bases versus 
visiting them over a year ago, you would actually see a pep in 
people's step. You would see people that like the mission more, 
all because we are changing the culture by trusting them.
    Mr. Johnson. All right.
    General Weinstein. Thank you.
    Mr. Johnson. Thank you.
    Admiral.
    Admiral Benedict. Sir, as I said, we are focused on two 
things--the infrastructure and personnel. So I would say that 
our greatest challenge right now is hiring and not just hiring 
but hiring and training personnel to do the mission of 
strategic deterrence whether it is in the shipyards, repairing 
the nuclear platforms, the submarines or whether it is in my 
strategic weapons facilities, hiring and training people to do 
the maintenance on the weapons and on the delivery system.
    So we are on track with doing that. But that is a two-faced 
effort--one is to hire them, the second one is to train and 
certify them to do the mission.
    Mr. Johnson. Thank you.
    Dr. Brumer.
    Dr. Brumer. Thank you, Congressman. Particular 
recommendations I think are mostly straightforward, you know, 
the resource challenges are real, the culture challenges are 
real. A lot of the recommendations come down to trying to 
strike a balance, a balance between empowering your airmen and 
ensuring adherence to rigorous standards, balances within 
culture.
    Those are challenging. And the only way to achieve a 
balance, and it is one of the reasons I think that we have had 
difficulty in the past, we have gone too far one way, the 
reviews tell us to go the other way, and we go too far the 
other way, is sustained attention and recalibration over time 
and that is difficult.
    Mr. Johnson. Thank you. I yield back.
    Mrs. Hartzler. Thank you, gentlemen.
    The gentleman from Montana, Mr. Zinke.
    Mr. Zinke. Thank you, Madam Chairman.
    Getting back to when an incident occurs in a nuclear 
facility, the chain of command and whether to notify Congress 
or not. I assume the incident over cheating, was there an OPREP 
[operations report] that was released over it?
    General Weinstein. I would have to verify, but I would 
assume there is, sir.
    Mr. Zinke. And generally on the OPREP I will assume the 
addressees are Secretary of Defense.
    General Weinstein. For the Air Force we provide it to the 
Air Force Operation Center, we provide it to National Military 
Command Center as well as Strategic Command.
    Mr. Zinke. And then that would be--the chain of command 
would be ultimately the Commander in Chief, I would assume?
    General Weinstein. I am not sure at what level it gets to.
    Mr. Zinke. But as far as informing Congress, I would assume 
it would go up to the Secretary of the Air Force or Secretary 
of Defense and they would have the responsibility. And lastly, 
I recently visited Malmstrom and the morale is good, you know, 
I think the--went in the hunting season, I visited during the 
hunting season; the hunting season is, you know, makes morale 
go up.
    But one of the issues was the Humvees because it was 
pointed out that you are out there, the weather in Montana 
during the winter is bad, the distances are long, and in my 
experience the Humvees are not the best of vehicles going 
across the roads of Montana in the winter.
    Are you aware of the problem with the Humvees and are 
trying to look at different vehicles that would be better in 
the weather, because I understand they have a lot of accidents 
up there and safety is an issue?
    General Weinstein. Yes, we agree that the Humvee is not the 
best vehicle. While it provides armor, up in Montana as well as 
North Dakota and Wyoming, it is not the best vehicle for the 
roads.
    We are working really closely with our major command--Air 
Force Global Strike Command, because we know that we need to 
provide the defenders, security force members with the proper 
vehicle for what they are doing.
    And I even had a discussion this week with the director of 
logistics at Global Strike Command on this very topic to 
replace the Humvees. My goal would be to replace the Humvees 
across the fleet to a vehicle that is better suited for the 
environment.
    You know, Humvees don't have anti-lock brakes which makes 
it problematic driving on the roads as well as we need a 
vehicle in the missile field that can--when it idles at minus 
40 below can keep the airmen warm. And the Humvee does not do 
that. So we are looking at what is the best alternative to 
replace the security force vehicles with vehicles that our 
airmen need.
    Mr. Zinke. Certainly, if Congress can be helpful and 
expedite in that, so we don't go through another winter, even 
if it is a short-term flexibility, you know? Just let us know 
and we would I am sure be glad to help them do whatever we can.
    General Weinstein. Thank you, sir.
    Mr. Zinke. And Madam Chairman, I yield back.
    Mrs. Hartzler. Thank you, gentlemen. Now the chairman of 
the Strategic Forces Subcommittee, Mr. Rogers.
    Mr. Rogers. Thank you, Madam Chairman.
    Curious, Admiral Benedict and General Weinstein, could you 
compare--you could compare and contrast for me the nuclear 
oversight between the Navy and Air Force? You talked about, 
Admiral Benedict, being a nuclear regulator. Do you all have a 
regulator, Admiral Weinstein?
    General Weinstein. No, sir. We have--Admiral Benedict 
brought that up at a stakeholders meeting we had with Admiral 
Haney, and the United States Air Force is looking at it. I can 
talk briefly about the way the United States Air Force does it.
    On a roughly quarterly basis, we have something called the 
nuclear oversight board. That nuclear oversight board is 
chaired by the Secretary and Chief of Staff of the United 
States Air Force, with all the four-stars going into issues 
that are nuclear.
    At a level below that, there is another organization that 
is chaired by the Air Force A-10, another position that the Air 
Force will be upgrading to a three-star position. That position 
goes through and reviews all the internal Air Force issues as 
well as issues that are going to be brought forward for the 
Nuclear Enterprise Review.
    So bottom line is that senior levels of the United States 
Air Force chair a meeting as well as the Air Force A-10 chairs 
a meeting to look at items.
    The other one--if I could say one more thing also. Internal 
to Air Force Global Strike Command we stood up something called 
the senior working group. That senior working group is--it is 
tri-chaired actually between the vice commander of Global 
Strike Command, myself, and General Clark.
    And we go through periodically all the recommendations and 
as the operational commanders, we can put pressure on the force 
in order to make sure our airmen get redux, so there are about 
three different layers of oversight that we are providing the 
nuclear enterprise.
    Admiral Benedict. Sir, I think as you know with--I am the 
single accountable flag officer within the United States Navy. 
So on the acquisition side, I am the only direct reporting 
program manager on the acquisition aspects of the Strategic 
Weapons System and in that I report to Mr. Stackley, the 
Assistant Secretary of the Navy.
    I am an Echelon II commander on the operational side and in 
that I am responsible for all the deployed assets. I report 
directly to the CNO [Chief of Naval Operations]. I am also the 
project officer for the Polaris sales agreement and in that I 
am the one authorized to sell internationally to the United 
Kingdom. And then most recently the Secretary of the Navy has 
designated me the regulator for all nine Echelon IIs who have 
any role in supporting the Navy's nuclear deterrent mission.
    So that allows me to integrate across all those functions 
and report directly to either the secretary for international, 
Mr. Stackley for acquisition, or directly for the CNO for any 
operational aspects.
    All of that comes together with us on a--about an every 6-
week meeting of what is the called the Navy Nuclear Weapons 
Oversight Council which is chaired by the director of the Navy 
staff who reports directly to the CNO, and that group, which is 
all the N codes, all the three-stars within the OPNAV [Office 
of the CNO] staff, have total transparency into all aspects of 
the Navy's mission here.
    Mr. Rogers. Yes. Thank you. General Weinstein, we had a 
briefing, I think it was a week ago, Admiral Benedict was in 
that where General Harencak talked about the need for 
helicopters for security purposes.
    We just found out the appropriators have cut those. What 
does that mean for you and your mission, your ability to do 
your mission?
    General Weinstein. I appreciate the question. You know, the 
current helicopters that we use in the missile field are 1960, 
1970 Hueys. They don't have based on the DOD [Department of 
Defense] requirements for payload lifting capacity and range.
    So it is a--we know operationally, we need a new 
helicopter. We don't have a helicopter that can move the 
security forces at the speed we need to get to the missile 
field. So any delay in a new helicopter from an operational 
consideration is really damaging to the security we have of the 
weapon system.
    Mr. Rogers. General Clark, the B-52s, awesome, but you are 
right--they are really old. But you did testify a little 
earlier, you think they have got--or you all expect a life of 
25 to 30 more years. Is that accurate?
    General Clark. Sir, that is accurate.
    Mr. Rogers. I talked with a new flag officer that we have 
got at Global Strike Command this week and told him about my 
interest in seeing a re-engining of the B-52s. And he explained 
to me the job leader General Wilson has been working on that.
    What are your thoughts about the viability of re-engining 
the B-52s with these new modern fuel efficient engines?
    General Clark. Sir, my personal opinion is that it is 
critical. If we are going to fly this airplane for another 25 
years, there is going to be a point that these engines will--
they will need to be replaced, I believe.
    It doesn't just impact us though from a business case, I 
mean it is fuel efficiency, as you mentioned. It is also 
maintainability; the maintenance on these engines is getting 
more expensive every year. Spare parts are becoming more scarce 
as we go, and they are only going to get--that situation is 
only going to get worse over the coming decades.
    But there is also an operational case. If we put these new 
engines on, it increases our range. It increases our 
opportunity for loiter capability. It increases the payload 
that the aircraft can carry, it increases the altitudes that it 
can climb to.
    It does everything that--or it enhances everything that we 
need a bomber to do, really. So I think that this is something 
that we should take a serious look at and try and take action 
on.
    Mr. Rogers. We are. Thank you very much. Thank you, all, 
for your service.
    Mrs. Hartzler. Thank you, gentlemen.
    Thank you to each of you for coming today. Thank you for 
all my colleagues who are participating today. Clearly, there 
have been several challenges over the last few years that have 
been identified in our most important mission that we have for 
a strong nuclear deterrent in our country.
    But I am encouraged by what we have heard today and 
encouraged by the systems that have been set up to make sure 
and monitor, Dr. Brumer, what is occurring and the 
recommendations, but also the positive steps and the leadership 
that is already being shown to address these issues and the 
improvements that we have already seen in a short amount of 
time.
    So I am very encouraged and feel like we are on the right 
track and we will get there under your leadership with the 
support here of Members of Congress. We are committed to 
working with you on that. And I would be remiss before we close 
the hearing not to introduce the new commander of Whiteman Air 
Force Base, General Paul Tibbets who is there as well. Do you 
want to wave here?
    And I have to say as far as the competition goes, you have 
talked about the Global Strike Challenge, I have to mention 
since--that we did win the Fairchild award, Trophy. And we did 
very well in that, so very, very proud of that. Thank you all 
for being here and this briefing is now closed.
    [Whereupon, at 2:24 p.m., the subcommittee was adjourned.]



      
=======================================================================



 
                            A P P E N D I X

                             June 25, 2015

=======================================================================

      



      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             June 25, 2015

=======================================================================

      


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
   

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             June 25, 2015

=======================================================================






   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     

      
    
    



      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             June 25, 2015

=======================================================================

      

             RESPONSES TO QUESTIONS SUBMITTED BY MS. SPEIER

    Admiral Benedict.
    <bullet>  E7, attached to Naval Ordnances Testing Unit in Port 
Canaveral, FL stands accused of sexually assaulting another E7's 
spouse. This case is being prosecuted by civilian courts.
    <bullet>  E5, attached to Strategic Weapons Facility, Atlantic in 
Kings Bay, GA, stands accused of eight counts of child molestation and 
is in custody of civilian authorities. The command is processing the 
accused for an administrative separation from the Navy.
    <bullet>  E3, attached to Strategic Weapons Facility, Pacific in 
Bangor, WA, is accused of violating Article 107 (false official 
statement) of the Uniform Code of Military Justice (UCMJ) and three 
specifications of Article 112a (two wrongful uses of a controlled 
substance and, an introduction of a controlled substance onto an 
installation used by the armed forces). Charges were referred to a 
Special Court-Martial on 2 June 2015 and arraignment is docketed for 17 
August 2015 with a proposed trial date of 30 September 2015.
    <bullet>  E3, attached to Strategic Weapons Facility, Pacific in 
Bangor, WA, was accused of violating Article 90 (assaulting or 
willfully disobeying superior commissioned officer) of the UCMJ. This 
issue was handled at Non-Judicial punishment.
    <bullet>  E3, attached to Strategic Weapons Facility, Pacific in 
Bangor, WA, was accused of violating Article 91 (insubordinate conduct 
toward warrant officer, noncommissioned officer, or petty officer) of 
the UCMJ. This issue was handled at Non-Judicial punishment.
    <bullet>  E4, attached to Strategic Weapons Facility, Atlantic in 
Kings Bay, GA, was accused of violating Article 92 (failure to obey 
order or regulation) of the UCMJ. This issue was handled at Non-
Judicial punishment.
    <bullet>  E4, attached to Strategic Weapons Facility, Atlantic in 
Kings Bay, GA, was accused of violating Article 92 (failure to obey 
order or regulation) of the UCMJ. This issue was handled at Non-
Judicial punishment.   [See page 20.]
    General Weinstein. I appreciate your desire to review the list of 
recommendations from our Airmen gathered during Air Force Global Strike 
Command's Force Improvement Program. The attached document reflects raw 
inputs from the field; as such, several are redundant as indicated by 
an asterisk. This list has more the 400 entries; the number of unique 
recommendations is approximately 350 as we discussed during my 
testimony.   [See page 20.]
    [The document referred to can be found in the Appendix on page 69.]
    General Weinstein. The following table shows the number of courts-
martial of Twentieth Air Force Airmen that went to a verdict in each of 
the full calendar years following the activation of Air Force Global 
Strike Command on August 7, 2009. Also included is the rate of courts-
martial per 1,000 Airmen compared with the Air Force rate per thousand 
(RPT).

 
 
      Year       20 AF Courts-Martial      20 AF RPT      Air Force RPT
 
2010            15                      2.0             2.4
2011            38                      4.9             2.4
2012            34                      4.4             2.2
2013            28                      3.6             2.3
2014            17                      2.2             1.8
 


    As of 21 July 2015, 9 courts-martial went to a verdict in Twentieth 
Air Force with a 1.2 RPT year-to-date. The Air Force RPT is 1.8 year-
to-date. Since 25 June 2014, recent courts-martial include the cases of 
3 officers and 10 enlisted that went to a verdict. As of 21 July 2015, 
court-martial proceedings are on-going in the case of 1 officer and 4 
enlisted.   [See page 20.]

?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             June 25, 2015

=======================================================================

      

                  QUESTIONS SUBMITTED BY MRS. HARTZLER

    Mrs. Hartzler. Describe your access to senior leaders within the 
services and OSD to monitor implementation of the NER recommendations.
    Dr. Brumer. My level of access to senior leadership has been 
excellent; all Services and DOD Components understand the high priority 
of the nuclear mission and are quick to respond to requests for 
information and briefings. I also have access to Deputy Secretary of 
Defense Work on a regular basis and am frequently contacted to provide 
updates on the progress of recommendation implementation. I greatly 
appreciate the cooperation we have received from the Services and we 
work hard to be judicious in our data requests to ensure good use of 
everyone's time.
    Mrs. Hartzler. Describe the sufficiency of access and information 
you receive from the services to monitor the progress of the 
recommendations.
    Dr. Brumer. The Services and DOD Components have provided and 
continue to provide a wealth of information to support metrics and 
analysis behind each of the recommendations. This data enables us to 
assess proposed approaches for implementation and to understand the 
impact of the recommendations on the core issues by comparing the 
baseline conditions to changes in metrics over time.
    Mrs. Hartzler. What processes have been set in place to track the 
implementation of the recommendations?
    Dr. Brumer. Last February, the Secretary of Defense directed OSD 
CAPE to track and assess the implementation of the Nuclear Enterprise 
Review recommendations and established the Nuclear Deterrent Enterprise 
Review Group (NDERG) to hold senior leadership accountable. Deputy 
Secretary of Defense Work continues to chair regular meetings of the 
NDERG at which CAPE provides updates and metrics on progress made 
toward implementing the recommendations and addressing the underlying 
issues. This is supported by a three-star level Senior Oversight Group 
to vet issues and resolve conflicts. Additionally, my team holds bi-
weekly working group level meetings attended by representatives from 
the Services, USSTRATCOM, Joint Staff, and OSD to update actions on 
each recommendation and evaluate progress through milestones and 
metrics.
    Mrs. Hartzler. What are the metrics being used to track progress on 
recommendations, and how do they measure the health of the the nuclear 
enterprise?
    Dr. Brumer. My team is tracking hundreds of unique metrics, 
including both process and outcome metrics. Process metrics help to 
determine whether a particular task is completed, whereas outcome 
metrics assess whether the cumulative effects of the tasks are 
achieving the desired intent of the recommendations and improving the 
overall health of the Enterprise. The goal of the outcome metrics is to 
go beyond box checking and assess the progress made to address the 
underlying issues. For those aspects of enterprise health that cannot 
be easily measured, such as morale, we are utilizing other tools like 
climate surveys and site visits to understand the intangibles, test 
hypotheses, and hear from the forces in the field on what they're 
seeing.
    Mrs. Hartzler. What are the Department's end state goal and 
objectives for regaining healthiness within the nuclear enterprise and 
when does the Department estimate that those goals and objectives will 
be achieved?
    Dr. Brumer. The reviews stated the nuclear enterprise has been 
sustained through shortfalls in manning, equipment, documentation, and 
guidance through the extraordinary effort and sacrifice on the part of 
our Sailors, Airmen, and Marines. The end state goal and objective for 
the Department is to regain the margin that has been eroded to ensure 
that this unsustainable level of effort and sacrifice is no longer 
necessary. The nuclear enterprise cannot be fixed overnight; these 
issues have been decades in the making and will require years of 
sustained attention to be resolved. While we do hope to see significant 
improvement in climate and similar metrics in the near future, the 
materiel recapitalization of the nuclear triad will not be complete 
until the mid-2030s.
    Mrs. Hartzler. What steps are being taken to institutionalize the 
desired oversight mechanisms within the Department to ensure the future 
safety, security, reliability, and vitality remains sufficient within 
the nuclear enterprise?
    Dr. Brumer. In addition to the Nuclear Deterrent Enterprise Review 
Group, chaired by the Deputy Secretary of Defense, the Services have 
taken steps to ensure greater oversight of the nuclear mission within 
their organizations. The Air Force has elevated Global Strike Command 
to a four-star billet and has elevated the Air Force Assistant Chief of 
Staff for Strategic Deterrence and Nuclear Integration to a three-star 
billet, pending Congressional approval. The Navy has codified the role 
of the three-star Director, Strategic Systems Programs as the 
regulatory lead for the Navy's Nuclear Deterrence Mission, responsible 
for providing guidance to its nuclear force and monitoring and 
assessing the mission.
    Mrs. Hartzler. In regards to the personnel reliability program 
(PRP), one of the recommendations stated that the ``commanders and 
supervisors, not the PRP monitor and medical community,'' should be 
responsible for fitness-for-duty determinations. However, wouldn't the 
medical community best able to determine fitness for duty, especially 
in connection with health and/or mental health issues? And how will the 
Department ensure consistent standards?
    Dr. Brumer. CAPE's role in the Nuclear Enterprise Review has been 
to track, monitor, and independently assess the implementation of the 
recommendations, conduct analysis to determine if actions are having 
the desired effect, and assess the health of the Nuclear Enterprise. 
The Services would best be able to address their specific approaches to 
determining fitness-for-duty, within the prescribed regulations. 
Fitness for duty is a whole-person concept, not just a physical health 
matter or a bureaucratic compliance function. However, we will continue 
to monitor the medical community's involvement in the PRP process and 
remain vigilant to the risk that changes to PRP processes may have 
unintended consequences.
    Mrs. Hartzler. How will you know when culture and morale problems 
within the DOD Nuclear Enterprise have improved to an acceptable 
standard?
    Admiral Benedict. Department leaders are committed to improving the 
morale of the force by changing the culture of micromanagement, 
enhancing training, and closing the gap between what leaders say and 
what they do. Former Secretary Hagel wanted to ensure that pride and 
professionalism in these areas are reinforced. The actions we are 
taking will involve changes in the organization, policies and culture. 
Other fixes will require an increase in resources allocated to the 
nuclear mission. The reviews had high praise for the dedication and 
professionalism of the nuclear workforce. The main concern regarding 
our service members is their morale and quality of life, not their 
proficiency. Navy Leadership will continue to monitor established 
morale and assessment tools coupled with increased site visits to 
monitor this area.
    Mrs. Hartzler. What is being done to reduce the number of 
inspections and/or coordinate inspections in order to minimize mission 
interruption and curtail the ``inspection is the mission'' mindset?
    Admiral Benedict. Navy launched a ``Reduce Administrative 
Distractions (RAD)'' program to streamline or eliminate administrative 
processes, instructions and training that add little return on 
investment. RAD is about putting ``Warfighting First;'' eliminating 
distractions that inhibit effectiveness and efficiency in our fleet. It 
is not a ``one time push'' but a level of effort--a new normal where 
everyone is sensitive to eliminating distractions to reduce 
frustrations and strengthen effectiveness and efficiency. The first 
topics that the RAD initiative focused on were the ones that Sailors 
stated were the highest priority. It's going on now--involvement is 
encouraged from the top down. The highest levels of Navy leadership are 
driving this through strategic communication.
    Additionally, the Office of the Secretary of Defense updated the 
Personnel Reliability Program (PRP) regulations to remove 
administrative burden, prevent inspectors from questioning medical 
judgments, revise rules regarding who must be on PRP and make PRP truly 
a commander's program to ensure reliability without imposing 
bureaucratic red tape that harms the mission. We will make an 
announcement on the updated program shortly. The Joint Staff has also 
updated the inspection guidance to reduce the periodicity and 
consolidate redundant inspections.
    Mrs. Hartzler. Do you believe that this year's budget, and the 
future year's defense plan, provide adequate funds to implement the 
NER's recommendations? Are there any particular concerns the Department 
has with any FY16 budget congressional marks on NER initiatives?
    Admiral Benedict. In addition to addressing delays in long-term 
SSBN maintenance, PB16 restores and maintains acceptable margin within 
the force by:
    <bullet>  Adding over 100 people (mix of civilian and military) to 
improve sustainment and training of the ballistic missile submarine 
force.
    <bullet>  Increasing funding to strategic weapons facility 
infrastructure sustainment and recapitalization to ensure long term 
health of these critical facilities.
    <bullet>  Increasing funding to fund R&D and operational 
engineering support to shore up the industrial base and accelerate 
efforts for a Trident follow-on to the already life-extended Trident II 
D5 missile.
    <bullet>  Increasing the authority of the Director, Strategic 
Systems and Programs (SSP) who will become the Navy Nuclear Deterrent 
Mission (NNDM) Regulator, the central lead for oversight, in order to 
sharpen our operational focus. SSP will report directly to the Chief of 
Naval Operations on nuclear force readiness.
    <bullet>  Executing a ``Reduce Administrative Distractions'' 
program to streamline or eliminate administrative processes, 
instructions and training that add little return on investment.
    Mrs. Hartzler. What recommendations within the NER does your 
service disagree with, or require more study of, before implementation 
or rejection?
    Admiral Benedict. The Navy will work with OSD and Congress to 
implement recommendations across the fleet to ensure safety and 
reliability. Navy added $464 million in PB16 ($2.18 billion FYDP) to 
restore and maintain acceptable margin within the force. Navy is 
working with OSD to respond to the broad spectrum of recommendations 
while ensuring the Navy's response addresses Navy specific issues.
    Mrs. Hartzler. How will you know when culture and morale problems 
within the DOD Nuclear Enterprise have improved to an acceptable 
standard?
    General Weinstein. Culture change within an institution takes time. 
This issue has my daily, personal attention and is a priority with my 
senior staff. As such, we continue to assess the morale of our Airmen 
and adjust as necessary. I, as well as my command chief master 
sergeant, visit remote work centers across our 33,600 square mile area 
of responsibility, conduct online chats with Airmen and review judicial 
data with my staff judge advocate; these are but a few forums that help 
me and my leadership team better understand our culture. We continue to 
place emphasis on continuous improvement and feedback.
    Fortunately, our Airmen in 20 AF are willing to give critical 
feedback, even to me, through direct interaction, through surveys such 
as the Air Force Combined Mishap Reduction System and using feedback 
tools in Air Force Global Strike Command's Force Improvement Program. 
I'm pleased to report our fielded force appreciates the changes we're 
making; these talented, dedicated Airmen are the foundation upon which 
we'll continue to make improvements.
    Mrs. Hartzler. What is being done to reduce the number of 
inspections and/or coordinate inspections in order to minimize mission 
interruption and curtail the ``inspection is the mission'' mindset?
    General Weinstein. Twentieth Air Force, along with Air Force Global 
Strike Command, has implemented the new Air Force Inspection System 
(AFIS) as outlined in Air Force Instruction 90-201, The Air Force 
Inspection System. This program operates under the philosophy that 
inspections are an inherent function of command, where inspection 
preparation is directly aligned with mission readiness. Wing personnel 
conduct the majority of AFIS activities to evaluate issues of interest 
to the local wing commander. Meanwhile, the Inspector General team at 
Air Force Global Strike Command provides oversight and continuous 
mentoring as the process matures.
    The Air Force will continue to administer Nuclear Surety 
Inspections at regular intervals in accordance with Chairman of the 
Joint Chiefs of Staff Instruction 3263.05, Nuclear Weapons Technical 
Inspections.
    Mrs. Hartzler. Do you believe that this year's budget, and the 
future year's defense plan, provide adequate funds to implement the 
NER's recommendations? Are there any particular concerns the Department 
has with any FY16 budget congressional marks on NER initiatives?
    General Weinstein. The President's FY16 budget and FYDP submission 
supports our ability to implement NER recommendations.
    As of 3 August 2015, not all of the defense committees fully funded 
the President's Budget Request of $506M for the UH-1N replacement. The 
current helicopters employed in the missile field do not meet DOD 
requirements for speed, range, and payload lifting capacity to move 
security forces to the missile field in response to a contingency. No 
amount of further modifications to the UH-1N can completely bridge 
these capability shortfalls. From an operational perspective, any delay 
in the new helicopter could endanger the security of the weapon system.
    Mrs. Hartzler. What recommendations within the NER does your 
service disagree with, or require more study of, before implementation 
or rejection?
    General Weinstein. Prior to the Nuclear Enterprise Review, Air 
Force Global Strike Command conducted three studies to look at issues 
within the command. These reviews--the Commander Directed Investigation 
(CDI), Study of Operations Training and Evaluation (SOTE) and the AFGSC 
Force Improvement Program (FIP)--generated approximately 350 
recommendations from our front-line Airmen. After consideration of each 
recommendation, we began implementation or further study on the vast 
majority, to include restructuring the operational missile squadrons, 
defining a career path for missile officers and increasing professional 
development opportunities for all Airmen.
    Upon release of the NER, we identified over 90 percent congruence 
between the NER and these three AFGSC studies. As the commander of the 
operational ICBM force, I'm confident these varied teams of experts 
pinpointed our shortfalls and formed the basis for our continuous 
improvement efforts.
    Mrs. Hartzler. How will you know when culture and morale problems 
within the DOD Nuclear Enterprise have improved to an acceptable 
standard?
    General Clark. The bomber Force Improvement Program (FIP) has 
become a philosophy of continuous improvement within Eighth Air Force 
and Air Force Global Strike Command. We are continuously assessing the 
state of our organization and health of our personnel. Even though we 
are continuously assessing, the dynamic and nebulous nature of warfare 
makes it impossible for us to establish a goal that, once reached, will 
allow us to relax and stop our forward progress. We are constantly 
seeking to improve, constantly setting the bar higher, never being 
satisfied with the status-quo. If we stop improving we are in danger of 
back-sliding. Therefore, we will carry on our FIP and continue 
soliciting feedback from our Airmen to continue improving the culture 
and morale of Eighth Air Force.
    Mrs. Hartzler. What is being done to reduce the number of 
inspections and/or coordinate inspections in order to minimize mission 
interruption and curtail the ``inspection is the mission'' mindset?
    General Clark. Both Eighth Air Force and Air Force Global Strike 
Command are working hard to reduce the number of inspections and lessen 
the burden on the Airmen. Currently many IG changes are being 
implemented helping to streamline processes. Primarily, we are lining 
up inspections with the AF Inspection System (AFIS), putting the 
responsibility on the wings to self-report and we follow up. The AFIS 
provides a mechanism for senior Air Force leaders to direct a targeted, 
more detailed and thorough inspection of specific programs, 
organizations, or issues (AFI 90-201, para 1.4.3).
    Mrs. Hartzler. Do you believe that this year's budget, and the 
future year's defense plan, provide adequate funds to implement the 
NER's recommendations? Are there any particular concerns the Department 
has with any FY16 budget congressional marks on NER initiatives?
    General Clark. This question is difficult to answer from a NAF 
standpoint. For this question, an excerpt for the 3.5.14 SASC SF--
Nuclear Forces Hearing must be referenced. ``And we need, therefore, we 
have to have a funding hump in the next decade to make sure that we get 
our funding up to the right amount, and that could take around $35 
billion a year, which at $35 billion a year will represent about five 
percent of our defense budget. So it's not impossible for us to reach 
that, and if we could get to the point where we've modernized and in 
the right way, we'll be on the right path. Now, of the new spending, 
only two percent of--of this amount is for the weapons modernization 
itself. That's relatively inexpensive. And it's a small price to pay 
for the nation's ultimate insurance policy, and for an arsenal that has 
maintained great power and peace, really, for 70 years.''
    Mrs. Hartzler. What recommendations within the NER does your 
service disagree with, or require more study of, before implementation 
or rejection?
    General Clark. Eighth Air Force has no issues with the reports; 
however the recommendations were not implemented verbatim. Some of the 
recommendations were tailored to AFGSC and 8AF, but staying in the 
spirit and intent of the recommendation.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MS. SPEIER
    Ms. Speier. As a follow-up to my question during the hearing, 
please provide our committee with information regarding recent or on-
going court-martial cases. How does the number of court-martials in the 
20th Air Force compare with the rest of the Air Force? Is it higher or 
lower than the average for the Air Force?
    General Weinstein. The following table shows the number of courts-
martial of Twentieth Air Force Airmen that went to a verdict in each of 
the full calendar years following the activation of Air Force Global 
Strike Command on August 7, 2009. Also included is the rate of courts-
martial per 1,000 Airmen compared with the Air Force rate per thousand 
(RPT).

 
 
      Year       20 AF Courts-Martial      20 AF RPT      Air Force RPT
 
2010            15                      2.0             2.4
2011            38                      4.9             2.4
2012            34                      4.4             2.2
2013            28                      3.6             2.3
2014            17                      2.2             1.8
 


    As of 21 July 2015, 9 courts-martial went to a verdict in Twentieth 
Air Force with a 1.2 RPT year-to-date. The Air Force RPT is 1.8 year-
to-date. Since 25 June 2014, recent courts-martial include the cases of 
3 officers and 10 enlisted that went to a verdict. As of 21 July 2015, 
court-martial proceedings are on-going in the case of 1 officer and 4 
enlisted.
    Ms. Speier. Please provide the committee with the studies that led 
to keeping a 24-hour shift in missile silos. Please also provide the 
committee with any studies or reviews of whether there is a problem of 
sleep-deprivation. Have there been any independent reviews on the 
question of whether there is a problem of sleep-deprivation?
    General Weinstein. Thank you for the opportunity to clarify our 
discussion on work shifts for our alert force. Two-officer crews serve 
24-hour shifts in each of the 45 Launch Control Centers; it is highly 
unlikely either officer would experience sleep-deprivation. Thanks to 
built-in safeguards in the Minuteman weapon system, and the deliberate 
scheduling of required tasks while on alert, one of the two officers 
may sleep in a sound-proof bed area within the LCC while the other 
monitors the weapon system. In short, we allow rest periods and only 
under rare circumstances do officers on crew not have the opportunity 
to rest.
    Ms. Speier. Please provide the committee with a copy of the RAND 
report ``Identifying Key Workplaces Stressors Affecting the Twentieth 
Air Force.'' Have the morale issues identified in this report been 
addressed in the NER recommendations or other on-going corrective 
actions?
    General Weinstein. We've provided an electronic copy per your 
request.
    RAND highlighted several morale issues in this report, specifically 
among our missile field chefs. One of the first decisions I made after 
assuming command of Twentieth Air Force was to move these chefs from 
our operations groups to our mission support groups (our experts in 
food service), giving these groups a vested interest in assuring ICBM 
combat capability across our 33,600 square mile AOR. With this move we 
addressed a prime concern among our Airmen.
    In these groups, missile chefs now work with and for Airmen from 
the Services career field; this enables them to receive mentoring from 
experienced Services leaders and exposes them to other Services 
specialties, thus preparing them for promotion and advancement in their 
career field.
    Regarding other morale issues highlighted by RAND, we've addressed 
these through Air Force Global Strike Command's Force Improvement 
Program (FIP) which pre-dated the NER by several months, but reflects 
the NER's recommendations to change the culture of micromanagement and 
boost morale through incentives and career opportunities.
    [The RAND report referred to is retained in the committee files and 
can be viewed upon request or accessed online at http://
cradmin.clerk.house.gov/repository/AS/AS06/20150625/103680/HHRG-114-
AS06-Wstate-WeinsteinUSAFJ-20150625-SD001.
pdf.]

                                  <all>
</pre></body></html>
